No. 20-5340
IN THE

Supreme Court of the United States
ORLANDO CORDIA HALL,
Petitioner
v.

WILLIAM P. BARR, ATTORNEY GENERAL et al.,
Respondents.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the D.C. Circuit
Execution Date: November 19, 2020 at 6:00 PM
EMERGENCY APPLICATION FOR A STAY OF EXECUTION
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.2(b), I certify that the document 35
pages, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.
Executed on November 19, 2020.
/s/ Pieter Van Tol
Pieter Van Tol
Counsel of Record
Hogan Lovells US LLP
390 Madison Avenue
New York, NY 10017
(212) 918-3000
pieter.vantol@hoganlovells.com

